No.

IN THE

J&itprcmy (Unurt nf tl^e Jlniteb
Jorge Armando Herrera Salguero,

Petitioner,
v.

People of the State of California,

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE

I, Mark R. Drozdowski, a Deputy Federal Public Defender in the Office

of the Federal Public Defender, which was appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), and who is a member

of the Bar of this Court, hereby certifies that, pursuant to Supreme Court
Rule 29.3, on July 16, 2020, a copy of the enclosed Motion for Leave to

Proceed in Forma Pauperis, Petition for a Writ of Certiorari, Appendix, and

1

Certificate Pursuant to Rule 33 was mailed postage prepaid and

electronically mailed to:

Counsel for Respondent

Lise S. Jacobson
Deputy Attorney General
Office of the Attorney General
600 W. Broadway
Suite 1800
San Diego, CA 92101
DocketingLAAWT@doj.ca.gov
Lise.Jacobson@doj.ca.gov

All parties required to be served have been served. I declare under

penalty of perjury under the laws of the United States of America that the

foregoing is true and correct.
Executed on July 16, 2020 at Los Angeles, California.

.z'

MARK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

